           U.S. Department of
                                                                   Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General

Subject:   INFORMATION: Quality Control Review of                          Date:   February 23, 2011
           Single Audit on the Metropolitan Washington
           Airports Authority
           Report No. QC-2011-055
                                                                        Reply To   JA-20
  From:    Earl C. Hedges                                               Attn Of:
           Program Director for Single Audit
    To:    Regional Administrator, FTA, Region III

           The U. S. Department of Transportation (DOT) is the cognizant Federal single
           audit agency for the Metropolitan Washington Airports Authority (Authority).
           This report presents the results of our Quality Control Review (QCR) of a single
           audit performed by Bert Smith & Co. on the Authority for the fiscal year ending
           December 31, 2009. During this period, the Authority expended about
           $211 million from the following DOT grant programs:

             DOT Operating               CFDA*     Program               FY 2009     Major Direct
             Administration              Number     Name               Expenditures Program Award
                                                    Transit Capital
               Federal Transit
                                         20.500   Investment Grants    $115,115,293        Yes    Yes
               Administration
                                                       Program
                                                    ARRA Transit
              Federal Transit
                                    20.500        Capital Investment    $77,260,000        Yes    Yes
              Administration
                                                   Grants Program
                                                    ARRA Airport
             Federal Aviation
                                    20.106          Improvement         $10,987,902        No     Yes
              Administration
                                                       Program
                                                       Airport
             Federal Aviation
                                    20.106          Improvement          $7,290,179        No     Yes
              Administration
                                                       Program
           * Catalogue of Federal Domestic Assistance

           Office of Management and Budget (OMB) Circular A-133, “Audits of States,
           Local Governments, and Non-Profit Organizations,” requires the auditor to render
           an opinion on the entity’s financial statements, identify inappropriate use of
           Federal funds, and report internal control and compliance deficiencies that affect
           Federal grant programs.

           Bert Smith performed the audit on the Authority's compliance with requirements
           applicable to each major program and the Authority's Schedule of Expenditures of
           Federal Awards. PricewaterhouseCoopers performed the audit on the Authority's
                                                                                                          2
financial statements and issued an unqualified opinion. Our QCR's scope was
limited to the work performed by Bert Smith. Bert Smith rendered an unqualified
(Clean) opinion on the Authority's compliance with requirements applicable to
each major program, and did not question any costs concerning DOT grant
programs. 1

The purpose of our QCR was to determine: (1) whether the audit work complied
with the Single Audit Act of 1984, as amended (Act), and OMB Circular A-133;
and (2) the extent to which we can rely on the audit work. Our review's scope was
limited to the DOT major program identified by Bert Smith, the Transit Capital
Investment Grants Program.

RESULTS

Based on our QCR, we determined that Bert Smith's work was acceptable with
deficiencies, and therefore generally met the requirements of the Act, OMB
Circular A-133, and the Transit Capital Investment Grants Program. We found
nothing to indicate that Bert Smith’s opinion or reports on internal control and
compliance were inappropriate or unreliable. However, we identified audit
documentation deficiencies and the need for expanded compliance testing in future
audits. Based on explanations provided by Bert Smith in response to our
concerns, we determined that these deficiencies did not alter the overall results of
audit. The deficiencies and compliance testing should be corrected in future audits
in order to adequately support audit conclusions. The deficiencies are related to
the following areas:

1. Sampling Methodology
   Bert Smith did not document the formal sampling plan and methodology it
   used to test direct and material major program compliance requirements.
   According to information Bert Smith provided, its sampling methodology
   included adequate sample selections for testing major program compliance
   requirements. However, Bert Smith agreed to document its formal sample
   selection methodology in future audits.

2. Reporting (Part 4-Compliance Requirement L)-Report of Disadvantaged
   Business Enterprise (DBE) Awards or Commitments and Payments
   As part of its determination of direct and material compliance requirements,
   Bert Smith concluded that the Authority was not required to prepare
   semi-annual DBE reports and therefore, did not test this requirement. Bert
   Smith based their determination on a letter dated October 31, 2008 from FTA
   that indicated that the Authority was not required to submit regular updates to
   its DBE program as long as it remained in compliance with the DBE program.

1
    The single audit report issued by Bert Smith & Co. is available upon request. Requests should be sent to
    singleauditrequest@oig.dot.gov.
                                                                                   3
   However, we contacted the FTA Office of Civil Rights and were informed
   that the requirement that the Authority submit semi-annual DBE reports
   remained in effect. In addition, FTA informed us that the Authority submitted
   its fiscal year 2009 semi-annual DBE reports in June 2010, and therefore, was
   not in compliance for fiscal year 2009. However, because Bert Smith did not
   test the Authority's submission of semi-annual DBE reports, this issue was not
   identified as a finding in the fiscal year 2009 single audit. We are not requiring
   Bert Smith to reissue the Authority’s Fiscal Year 2009 Single Audit report
   because FTA confirmed that the Authority is now in compliance with DBE
   reporting requirements. However, in future audits, Bert Smith agreed to test
   the Authority's submission of its semi-annual DBE reports to FTA.

3. Special Tests and Provisions for Awards With ARRA Funding
   (Compliance Requirement N - OMB Addendum 1)
   Bert Smith needs to better document its compliance testing of the Special
   Tests and Provisions for Awards with ARRA funding compliance
   requirements. The specific compliance requirements affected were the
   Separate Accountability for ARRA Funding (R1), and Presentation of ARRA
   Funds on the Schedule of Expenditures of Federal Awards (SEFA) and Data
   Collection Form (R2). During our review, Bert Smith stated that they
   reviewed R1 and R2 as part of the SEFA reconciliation and Financial Status
   Reports testing. However, Bert Smith agreed to better document its
   compliance testing of the Special Tests and Provisions for Awards with ARRA
   funding in future audits.

If you have any questions concerning this report, please call me at (410) 962-1729,
or John R. Sysak, DOT National Single Audit Coordinator, at (410) 962-2630.


                                         #

cc: Audit Liaison, FTA, TBP-11
    Audit Liaison, OST, M-1
    Acting VP for Finance and CFO, Metropolitan Washington Airports Authority
